          OIG Statement on Execution of Search Warrant in Stockton, California
                                   On June 7, 2011

On June 7, U.S. Department of Education Office of Inspector General (OIG) special agents
executed a search warrant at a Stockton, California residence. The warrant was authorized by a
Federal Magistrate Judge.

Reports by the media that the search was related to a defaulted student loan are wrong. The OIG
does not engage in the collection of late student loan payments. The OIG conducts criminal
investigations of fraud, bribery, embezzlement, and other criminal activity involving the
Department of Education.

Before we execute a search warrant, OIG always assesses the risk involved so that we can ensure
the safety of the officers involved, the occupants of the property, and the general public. We
look at a number of factors, such as the persons known to occupy or frequent the location and
whether they have any criminal or violent histories.

The reasons for our search warrant are currently under seal by the court and cannot be discussed
publicly. Also, to protect the integrity of the investigatory process and the privacy of any
individuals associated with an investigation, OIG does not discuss details of its ongoing criminal
investigations.

Additional Information on OIG

OIG is the law enforcement arm of the Department of Education and is responsible for the
detection and prevention of waste, fraud, abuse, and criminal activity involving Department
funds, programs, and operations. We conduct independent audits, investigations, inspections,
and other reviews. We make recommendations to the Department to address systemic
weaknesses and take administrative action. We also make refer criminal matters to the U.S.
Department of Justice for prosecution. Our staff includes auditors, financial analysts,
information technology professionals, special agents, inspectors, management and budget
analysts, and attorneys. OIG operates with full statutory law enforcement authority, which
includes conducting search warrants and making arrests. We carry out our activities in
accordance with Federal policies and procedures.

For more information on OIG investigative operations, including our statutory law enforcement
authority, press releases and summaries of our investigative work, please visit our Web site at:
http://www.ed.gov/oig
